Audit of USAID/Egypt’s Performance of
End-Use Checks on Purchased Commodities

Audit Report No. 6-263-03-001-P

March 12, 2003




                    Cairo, Egypt
March 12, 2003

MEMORANDUM
FOR:           Acting Director, USAID/Egypt, Anne Aarnes

FROM:          Acting RIG/Cairo, David H. Pritchard /s/

SUBJECT:       Audit of USAID/Egypt’s Performance of End-Use
               Checks on Purchased Commodities (Report No. 6-
               263-03-001-P)

This is our final report on the subject audit. We received your
comments on the draft report and have included them in their
entirety in Appendix II.

This report contains one recommendation regarding the need for
USAID/Egypt to perform end-use checks on commodities
purchased with USAID funds. Based on your comments to our
draft report, we consider that a management decision has been
made on Recommendation No. 1. Please notify the Bureau of
Management’s Office of Management Planning and Innovation
when final action is complete.

I appreciate the cooperation and courtesy extended to my staff
during the audit.
                                                                    Page
Table of   Summary of Results                                         3
Contents
           Background                                                3

           Audit Objective                                           3

           Audit Findings                                            4

                  Did USAID/Egypt perform end-use checks in
                  accordance with USAID Automated Directives
                  System and applicable regulations?

                            USAID/Egypt Needs to Better Implement
                            USAID Policy for End-Use Checks          5

           Management Comments and Our Evaluation                    7

           Appendix I - Scope and Methodology                        8

           Appendix II - Management Comments                         10




                                                                           1
Summary of                  Regional Inspector General/Cairo audited whether USAID/Egypt
Results                     performed end-use checks in accordance with USAID’s requirements
                            and applicable regulations (see page 3).

                            Overall, USAID/Egypt performed end-use checks as required on the
                            bulk of commodities purchased. However, commodities purchased
                            for five strategic objectives had not received periodic end-use checks.
                            This report includes one recommendation to address this weakness
                            (see page 7).

                            Regional Inspector General/Cairo recommended that the Director,
                            USAID/Egypt, implement Automated Directives System 324.5.6,
                            End-Use Checks, to carry out, or to arrange to have carried out, end-
                            use checks on commodities purchased by USAID funds.
                            USAID/Egypt agreed with the recommendation.




Background                  USAID/Egypt has procured significant amounts of commodities
                            annually for projects and the Commodity Import Program. For
                            instance, during fiscal year 2001 USAID/Egypt procured
                            $265,825,685 worth of commodities for the Commodity Import
                            Program. In addition, USAID/Egypt paid almost $22 million for
                            project commodities during fiscal year 20011.

                            Automated Directives System (ADS), Chapter 324.5.6, End-Use
                            Checks, requires USAID Missions to carry out, or arrange to have
                            carried out, end-use checks on commodities to confirm their use in
                            accordance with the requirements of the underlying agreement.


Audit Objective              Regional Inspector General/Cairo performed this audit to answer the
                             following question:

                             Did USAID/Egypt perform end-use checks in accordance with
                             USAID Automated Directives System and applicable regulations?

                             Appendix I provides details on the audit scope and methodology.



 1
     This amount does not include commodities purchased through technical assistance contractors because
     the Mission’s accounting system was not capable of segregating commodity purchases procured through
     technical assistance contracts.



                                                                                                       2
Audit Findings   Did USAID/Egypt perform end-use checks in accordance with
                 USAID Automated Directives System and applicable
                 regulations?

                 Overall, USAID/Egypt performed end-use checks as required for the
                 bulk of commodities purchased. However, commodities purchased
                 under five of seven strategic objectives had not received periodic
                 end-use checks.

                 USAID/Egypt performed end-use checks on commodities procured
                 under (1) the Environment for Trade and Investment Strategic
                 Objective, including the Commodity Import Program, and (2) the
                 Healthier Planned Families Strategic Objective in accordance with
                 ADS 324.5.6. According to a Mission official, Commodity Import
                 Program purchases accounted for 90 percent of commodities
                 purchased under the Environment for Trade and Investment Strategic
                 Objective.

                 In regards to the Commodity Import Program, USAID/Egypt’s
                 Financial Management Division designed an annual review plan to
                 perform end-use checks. This division sent the plan to the
                 Commodity Import Program Chief for review and approval. After
                 each end-use check review, the Financial Management Division
                 issued a formal written report to the Commodity Import Program
                 Chief. If the report contained any findings, the Commodity Import
                 Program Chief took necessary actions to resolve such findings.

                 In regards to the Healthier Planned Families Strategic Objective, a
                 Program Specialist made various site visits to projects. During these
                 site visits, the Program Specialist performed end-use checks on
                 project purchases to ensure their existence and proper use. At the
                 end of each site visit, the Program Specialist issued a report
                 documenting any findings or observations.

                 The Mission’s end-use checks for the Commodity Import Program
                 and the Healthier Planned Families Strategic Objective did not
                 disclose any material findings. However, as discussed below,
                 USAID/Egypt needs to provide for end-use checks on commodity
                 purchases under five strategic objectives.




                                                                                     3
USAID/Egypt Needs to Better Implement
USAID Policy for End-Use Checks

Contrary to USAID policy, USAID/Egypt generally did not perform
end-use checks on project commodities purchased for five strategic
objectives. This occurred because some Mission officials were
unaware of the requirement. Consequently, USAID/Egypt did not
detect some problem areas related to the use of their commodities.

USAID/Egypt financed the cost of commodities for many projects.
As discussed earlier, the Mission performed end-use checks on
commodities for two Strategic Objectives, including the Commodity
Import Program. However, USAID/Egypt did not perform end-use
checks on commodities purchased for the following Strategic
Objectives as required by ADS 324.5.6:

•   Skill for Competitiveness, Strategic Objective 17
•   Sustainable Utility Service, Strategic Objective 18
•   Environment and Natural Resources, Strategic Objective 19
•   Strengthened Civil Society, Strategic Objective 21
•   Basic Education, Strategic Objective 22

USAID Automated Directives System 324.5.6 says: "The USAID
Mission shall carry out, or arrange to have carried out, end-use
checks on commodities to confirm their utilization in accordance
with the requirements of the underlying agreement."

We interviewed various Project Officers to assess their knowledge of
the ADS requirement. However, few were aware of it. We brought
this issue to Mission management's attention, who said that they
would institute measures to ensure that the Mission complies with
USAID policies.

We also discussed with Mission staff the possibility of using its
Recipient-Contracted Audit Program (RCAP) as a means to help
comply with the ADS requirement to carry out commodity end-use
checks. The staff said that they thought using the RCAP to help
comply with the ADS requirement would require that the Statement
of Work be revised so that the audits would be conducted in a way
that satisfied both the Mission and the Office of Inspector General,
such as:




                                                                       4
   •   requiring the auditors to follow the end-use check procedures
       contained in the ADS Chapter on post-procurement action,
       and
   •   requiring the audit report to have a separate section on
       commodities that would specifically detail what was done.

In addition, the Mission also noted that the RCAP would not provide
audit coverage of commodities for recipients expending less than
$300,000 per year.

At the project level, where the Mission was most vulnerable to loss
and misuse, we tested 40 project purchases and 15 vehicles to
determine whether they were used for their intended purposes.
The tested items were present and accounted for, in a good
working condition, and used properly to achieve project purposes.
However, we identified the following potential problem areas that
could have been detected through end-use checks:

1. At General Dynamics, USAID-financed vehicles were not
   marked with a USAID emblem as required by ADS 320.
   USAID/Egypt had issued a Contractor Notice to stop marking
   USAID project vehicles with USAID emblems for security
   purposes. However, the Contractor Notice had expired on
   February 22, 1998. Therefore, USAID/Egypt should determine
   whether USAID contractors are required to mark project
   vehicles with a USAID emblem.

2. Save the Children, General Dynamics, and Price Waterhouse
   Coopers were not reimbursing USAID/Egypt for personal use
   of vehicles in accordance with Mission Order 1–7, Use and
   Monitoring of Project Vehicles. This Mission Order states,
   “The contractor shall reimburse the project for personal use on
   a monthly basis at the U.S. government rate in effect for the
   period of use.” Contrary to the Mission Order, Save the
   Children paid USAID/Egypt $600 annually as a flat rate for the
   personal use of a vehicle; General Dynamics signed an
   agreement with USAID/Egypt to credit the project for 107
   kilometers per month per vehicle for the personal use of
   vehicles; and PricewaterhouseCoopers did not make any
   reimbursements to USAID/Egypt. USAID contracts and grants
   should incorporate Mission Order 1–7 requirements to ensure
   contractor and grantee compliance.




                                                                   5
                 To ensure that USAID/Egypt performs required end-use checks we
                 recommend the following:

                        Recommendation No. 1: We recommend that the
                        Director, USAID/Egypt, implement ADS 324.5.6,
                        End-use Checks, to carry out, or arrange to have
                        carried out, end-use checks on commodities
                        purchased by USAID funds.



Management       USAID/Egypt agreed with the audit recommendation and the two
Comments and     problem areas in the report. It had also taken steps to correct those
our Evaluation   problems.

                 USAID/Egypt said that it:

                    1. Will develop a Mission Order to explain roles and
                       responsibilities for conducting end-use verification and
                       issuing reports.
                    2. Took proactive measures by assigning the Financial
                       Management Office as the Cognizant Office for developing
                       the end-use verification plan.
                    3. Will develop an end-use verification plan, effective Fiscal
                       Year 2003, for prior year commodities and vehicles.

                 Based on the Mission’s comments, a management decision has been
                 made on Recommendation No. 1.




                                                                                     6
                                                                      Appendix I


Scope and
Methodology   Scope

              The audit was made in accordance with generally accepted
              government auditing standards. Fieldwork was performed from
              January 22, 2002 to April 15, 2002. It covered USAID/Egypt’s
              fiscal year 2001 project purchases. During the survey phase, we
              determined that the risk for the Commodity Import Program and
              Strategic Objective 20, Healthier Planned Families, was low.
              Therefore, we did not test the use of any commodities purchased for
              these strategic objectives.

              We did not use statistical sampling because the Mission was not
              able to provide a verifiable list of all project purchases incurred
              during fiscal year 2001. However, the Mission was able to
              provide various project-purchase lists that were prepared by
              contractors and grantees. We did not verify the accuracy of project
              purchases data compiled and provided by the various contractors
              and grantees.

              In collaboration with Mission officials, we judgmentally selected a
              sample of 40 project commodities and 15 project vehicles from the
              fiscal year 2001 project-purchase lists. We selected the vehicle
              sample from purchases made during the life of the contracts and
              cooperative agreements. The value of the 40 tested project
              purchases amounted to $157,341. USAID/Egypt’s fiscal year 2001
              total project purchases amounted to $21,886,836.

              From March 15, 2002, to March 29, 2002, we verified
              commodities usage at:

              •   Two Telecommunication Centers in Cairo.
              •   Cairo University (School of Pharmacy).
              •   Cairo Court.
              •   Save the Children/Cairo.
              •   General Dynamics/Cairo.
              •   International Institute for Education.
              •   Academy for Educational Development.
              •   CARE International.




                                                                                    7
                                                          Appendix I



•   PriceWaterhouse Coopers/Cairo.
•   International Executive Services Corps.
•   Chemonics International/Cairo.

Methodology

We interviewed various Mission employees to gain an understanding
of the actual process for conducting, or arranging for, end-use
checks. To further our understanding, we accompanied the Program
Specialist for Strategic Objective 20 on a site visit to check
commodities at two Healthy Mother Healthy Child project sites in
Fayoum. These sites were using the medical equipment, medical
furniture, medical instruments, tools, and office furniture procured by
the John Snow Corporation for the Healthy Mother Healthy Child
Project.

We evaluated and assessed the effectiveness of the Mission’s internal
controls with regard to end-use checks. The level of assurance was
limited to the items tested.

We made various site visits to physically locate and examine the
sample items. During those visits, we examined the condition of the
items, reviewed the contract for any special restrictions, and ensured
proper use by the various projects.




                                                                     8
                                                      Appendix II

Management
Comments

MEMORANDUM

To:          RIG/Cairo, Darryl T. Burris

From:        D/DIR, Anne Aarnes, USAID/Egypt //Signed//

Subject:     Audit of USAID/Egypt’s Performance of End-Use
             Checks on Purchased Commodities – Draft Audit
             Report

     Following is the Mission’s response to Recommendation
No. 1 under the subject draft audit report.

     Recommendation No. 1:
     We recommend that USAID/Egypt implement ADS 324.5.6,
End-use Checks, to carry out, or arrange to have carried out,
end-use checks on commodities purchased by USAID funds.

     The report stated that the Mission performs end-use
checks on commodities procured under (1) the Environment for
Trade and Investment Strategic Objective, namely the
Commodity Import Program, and (2) the Healthier Planned
Families Strategic Objective in accordance with ADS 324.5.6.

     The report disclosed at the project level, that the 40
tested project commodities and 15 vehicles were present and
accounted for, in good working condition, and utilized
properly to achieve the project purposes. But, potential
problem areas, as noted below were identified in the report.

     The report revealed that USAID financed vehicles are
not marked with the USAID emblem as required by ADS 320.
Finally, the report noted that some USAID contractors were
not reimbursing USAID/Egypt for personal use of project
funded vehicle in accordance with Mission Order 1-7.

     The report added that the contractor notice relevant
to marking requirements (06-98) had expired on February 22,
1999, and suggested that the Mission should determine



                                                                9
whether USAID contractors are required to mark project
vehicles with the USAID emblem.

     Contractor Notice No. 1-01 of January 25, 2001
erroneously included Contractor Notice 06-98 among the list
of still-valid contractor notices (see attached).
Currently, the Mission is reviewing a draft Contractor
Notice to reinstate the waiver of USAID marking
requirements for certain USAID project funded vehicles.

     Further, the report referred to Mission Order 1 – 7,
VIII titled “Use and Monitoring of Project Vehicles” in
which the contractor shall reimburse the project for
personal use on a monthly basis at the U.S. government rate
in effect for the period of use. It was further requested
that the Mission incorporate Mission Order 1 – 7
requirements into USAID issued contracts and grants to
ensure contractor and grantee compliance. USAID/Egypt,
Office of Procurement will consult with USAID/W Office of
Policy regarding adding the Mission Order to contract
clauses.

     To streamline the end-use verification, a Mission
Order will be developed to explain roles and
responsibilities of the cognizant technical officers and
the Financial Management Office in collecting relevant
information on USAID-funded commodities to develop an
annual end-use verification plan and to conduct end-use
verification and issue reports.

     Proactive measures have already been taken by the
Mission by assigning the Financial Management Office as
the cognizant office with responsibility for developing
the end-use verification plan in coordination with the
cognizant technical officers and for performing end-use
verification and issuing reports.

     Effective FY2003, the Mission will develop an end-use
verification plan for prior year commodities and vehicles
to ensure that USAID/Egypt funded commodities and vehicles
are effectively utilized in accordance with the
requirements of the underlying agreements and ADS 324.

     In view of the above, the Mission believes that a
management decision has been made and requests RIG/Cairo
to resolve the recommendation. Final action will be
effected upon the presentation of evidence to show that




                                                             10
the end-use verification plan has been developed and that
its implementation has begun.


Distribution:
A/AD/HDD, A. Yates
A/AD/EG, D. Atwood
A/AD/EI, M. Gould
A/OD/LEG, T. Nunn
OD/MGT, B. Schaeffer
A/OD/PROC, C. Judge
A/OD/SCS, C. Williams




                                                            11
